RUDOLF WIDENHOUSE
21 May 2020
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
I First Street NE
Washington, D.C. 20543
Re:

Thomas v. Barnes
19-1307
Capital Case

Dear Mr. Harris:
On 15 May 2020, petitioner served a petition for a writ of certiorari in this
matter. The brief in opposition is due on or before 19 June 2020. I am requesting a
thirty-day extension of time, to and including 19 July 2020, in which to file and
serve the brief in opposition. I have contacted opposing counsel, Special Deputy
Attorney General Jonathan P. Babb, who has no objection to this extension. I am
serving a copy of this letter on him.
I have several other matters on which I am involved, in addition to the
remote working necessitated by the pandemic. I would appreciate having the
additional thirty days.

Thank you for your attention to this matter. If you need further information,
you can contact me at mgwidenhouse@rudolfwidenhouse.com.
Very truly yours,

9~J_~~
) . Gordon Widenhouse, Jr.
Counsel for William Barnes
Respondent

POST OFFICE BOX 2663, CHAPEL HILL, NC 27515

